<html>
<title> - AN OVERVIEW OF THE NASA AERONAUTICS RESEARCH MISSION DIRECTORATE BUDGET FOR FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        AN OVERVIEW OF THE NASA

                AERONAUTICS RESEARCH MISSION DIRECTORATE

                      BUDGET FOR FISCAL YEAR 2013

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, APRIL 26, 2012

                               __________

                           Serial No. 112-80

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-060                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          JERRY F. COSTELLO, Illinois
    Wisconsin                        TERRI A. SEWELL, Alabama
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         FREDERICA S. WILSON, Florida
FRANK D. LUCAS, Oklahoma             HANSEN CLARKE, Michigan
W. TODD AKIN, Missouri                   
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                 EDDIE BERNICE JOHNSON, Texas
E. SCOTT RIGELL, Virginia
MO BROOKS, Alabama
RALPH M. HALL, Texas
                            C O N T E N T S

                        Thursday, April 26, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

Statement by Representative Jerry F. Costello, Ranking Minority 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

                               Witnesses:

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    13
    Written Statement............................................    16

Marion Blakey, Chair, Aeronautics Committee, NASA Advisory 
  Council, and President, Aerospace Industries Association
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Wesley Harris, Chair, Committee to Assess NASA's Aeronautics 
  Flight Research Capabilities, National Research Council, and 
  Charles Stark Draper Professor of Aeronautics and Astronautics, 
  Massachusetts Institute of Technology
    Oral Statement...............................................    38
    Written Statement............................................    41

Dr. John Tracy, Chair, National Research Council's Aeronautics 
  Research and Technology Roundtable, and Chief Technology 
  Officer and Senior Vice President of Engineering, Operations 
  and Technology, The Boeing Company
    Oral Statement...............................................    48
    Written Statement............................................    51

Discussion                                                           57

             Appendix 1: Answers to Post-Hearing Questions

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................    72

Ms. Marion Blakey, Chair, Aeronautics Committee, NASA Advisory 
  Council, and President, Aerospace Industries Association.......    81

Dr. Wesley Harris, Chair, Committee to Assess NASA's Aeronautics 
  Flight Research Capabilities, National Research Council, and 
  Charles Stark Draper Professor of Aeronautics and Astronautics, 
  Massachusetts Institute of Technology..........................    87

Dr. John Tracy, Chair, National Research Council's Aeronautics 
  Research and Technology Roundtable, and Chief Technology 
  Officer and Senior Vice President of Engineering, Operations 
  and Technology, The Boeing Company.............................    92


                        AN OVERVIEW OF THE NASA


                AERONAUTICS RESEARCH MISSION DIRECTORATE

                      BUDGET FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, APRIL 26, 2012

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.
[GRAPHIC] [TIFF OMITTED] 74060.001

[GRAPHIC] [TIFF OMITTED] 74060.002

[GRAPHIC] [TIFF OMITTED] 74060.003

[GRAPHIC] [TIFF OMITTED] 74060.004

[GRAPHIC] [TIFF OMITTED] 74060.005

[GRAPHIC] [TIFF OMITTED] 74060.006

[GRAPHIC] [TIFF OMITTED] 74060.007

    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order.
    Good morning, and welcome to today's hearing entitled ``An 
Overview of NASA's Aeronautics Research Mission Directorate 
Budget for Fiscal Year 2013.'' In front of you are packets 
containing the written testimony, biographies and Truth in 
Testimony disclosures for today's witness panel. I recognize 
myself for five minutes for an opening statement.
    Today's hearing will examine NASA's fiscal year 2013 
Aeronautics Research Mission Directorate budget request. I 
first want to thank our witnesses for taking their time from 
their busy schedules to appear before the Space and Aeronautics 
Subcommittee. I realize you and your staff devoted considerable 
effort preparing for your appearance, and I want to assure you 
that your wisdom and expertise will be of immense help to our 
Committee today and in the months and years ahead.
    Aeronautics research and development, and the technologies 
they spin off, are critical to our national security and to the 
ongoing success of our Nation's aerospace industrial base, 
which is our country's greatest source of exports. No other 
enterprise has played a greater role producing innovative 
aeronautics technologies than NASA.
    Since its founding nearly 100 years ago as the National 
Advisory Committee for Aeronautics, NASA technologies have made 
possible today's domestic civil and military aerospace 
industries. Across the spectrum, from fundamental research in 
airfoil designs, materials research, and high-speed flight to 
highly integrated systems research activities such as turbine 
engines and innovations in air traffic management technologies, 
NASA's cadre of scientists and engineers have helped sustain 
the preeminence of American aerospace products, providing an 
enormous source of high-paying jobs.
    Our position, though, is being challenged by the emergence 
of aerospace industries abroad. If our domestic industry is to 
maintain leadership in the years ahead, it is essential that 
research and development continue to produce more efficient, 
cleaner and robust aircraft, not only to distinguish our 
products from competitors, but to preserve the role of aviation 
as the safest, fastest, most convenient and most 
environmentally benign source of transport.
    The growth of overseas competition occurs at a time when 
NASA's aeronautics research and development funding is on the 
decline and continues to shrink, chiefly for reasons related to 
agency budgets. The fiscal year 2013 request of $551 million is 
$18 million below current levels. Today's aeronautics spending 
accounts for about three percent of NASA's overall budget, 
compared to about seven percent of the budget in fiscal year 
2000.
    During the middle of the last decade, in an effort to 
address declining budgets, NASA aeronautics research and 
development was restructured to focus most of ARMD's portfolio 
on foundational research. In the years since, the agency has 
been able to leverage industry investment in a number of 
research areas, but a report recently issued by the National 
Research Council concludes that continuing down the path of 
emphasizing foundational research no longer makes good sense, 
and instead recommends that NASA reinstitute a cadence of 
relatively inexpensive flight research programs that are of a 
higher order of scale and sophistication than being currently 
flown.
    To offset the costs of flight research, the NRC proposes 
that NASA phase out the majority of its lower-priority 
aeronautics activities. The report also stresses the intrinsic 
value of flight research, suggesting that the agency will be 
able to mature technologies to a higher level, thus ensuring 
their adoption by industry.
    I look forward to discussing ARMD's research strategy and 
the NRC report, and gaining our witnesses' insights on the best 
path forward.
    I want to again thank our witnesses for appearing here 
today. We have an excellent group of experts, and I look 
forward to hearing your testimony.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Subcommittee Chairman Steven M. Palazzo

    Good morning and welcome to today's hearing on NASA's FY 2013 
Aeronautics Research Mission Directorate budget request. I want to 
thank our witnesses for taking time from their busy schedules to appear 
before the Space and Aeronautics Subcommittee. I realize you and your 
staff devoted considerable effort preparing for your appearance, and I 
want to assure you that your wisdom and expertise will be of immense 
help to our Committee today and in the months and years ahead.
    Aeronautics research and development, and the technologies they 
spin off, are critical to our national security, and to the ongoing 
success of our Nation's aerospace industrial base, which is our 
country's greatest source of exports. No other enterprise has played a 
greater role producing innovative aeronautics technologies than NASA.
    Since its founding nearly 100 years ago as the National Advisory 
Committee for Aeronautics, NASA technologies have made possible today's 
domestic civil aviation industry. Across the spectrum from fundamental 
research in airfoil designs, materials research, and high-speed flight 
to highly integrated systems research activities such as turbine 
engines and innovations in air traffic management technologies, NASA's 
workforce of scientists and engineers have helped sustain the 
preeminence of American aerospace products, providing an enormous 
source of high-paying jobs.
    Our position, though, is being challenged by the emergence of 
aerospace industries abroad. If our domestic industry is to maintain 
leadership in the years ahead, it's essential that research and 
development continue to produce more efficient, cleaner, and robust 
aircraft, not only to distinguish our products from competitors, but 
also to preserve the role of aviation as the safest, fastest, most 
convenient, and most environmentally benign source of transport.
    The growth of overseas competition occurs at a time when NASA's 
aeronautics R&D funding is on the decline and continues to shrink, 
chiefly for reasons related to agency budgets. The FY 2013 request of 
$551 million is $18 million below current levels. Today aeronautics 
spending accounts for about three percent of NASA's overall budget, 
compared to about seven percent of the budget in FY 2000.
    During the middle of the last decade, in an effort address 
declining budgets, NASA aeronautics research and development was 
restructured to focus most of ARMD's portfolio on foundational 
research. In the years since, the agency has been able to leverage 
industry investment in a number of research areas, but a report 
recently issued by the National Research Council concludes that 
continuing down the path of emphasizing foundational research no longer 
makes good sense, and instead recommends that NASA reinstitute a 
cadence of relatively inexpensive flight research programs that are of 
a higher order of scale and sophistication than being currently flown.
    To offset the costs of flight research, the NRC proposes that NASA 
phase out the majority of its lower-priority aeronautics activities. 
The report also stresses the intrinsic value of flight research, 
suggesting that the agency will be able to mature technologies to a 
higher level, thus ensuring their adoption by industry.
    I look forward to discussing ARMD's research strategy and the NRC 
report and gaining our witnesses' insights on the best path forward.
    I want to again thank our witnesses for appearing. We have an 
excellent group of experts, and I look forward to hearing your 
testimony.

    Chairman Palazzo. I now recognize Mr. Costello for his 
opening statement.
    Mr. Costello. Mr. Chairman, thank you, and I welcome our 
witnesses here today and look forward to hearing their 
testimony.
    As Ranking Member of the House Transportation and 
Infrastructure Aviation Subcommittee, I am very much aware of 
NASA's importance to the U.S. aerospace and aviation, 
particularly with the development of NextGen, the next 
generation air traffic control system. Both Marion Blakey and I 
worked very closely together on NextGen, and I am looking 
forward to talking to her and asking her some questions about 
NextGen.
    NASA's contributions have will make possible significant 
reduction in controller workload, and an estimated $300 million 
per year in fuel savings with fleet-wide deployment at the 
busiest airports. These contributions will save fuel and reduce 
noise by enabling more efficient arrivals and are evidence of 
how investments in research today will produce significant 
dividends tomorrow.
    Through the 2010 NASA Authorization Act, Congress tasked 
NASA with maintaining a strong aeronautics research portfolio 
that focused on fundamental research through systems research. 
However, for the past several years, NASA has not received the 
necessary funding to fulfill those objectives. This is 
unfortunate, given NASA's integral role in enabling the 
strength of the U.S. aerospace industry and, in partnership 
with FAA, the safety of the flying public. Yet the industry 
faces continued challenges such as increasing congestion of the 
Nation's airspace system, maintaining safety in the face of 
increasing travel demand, and mitigating the negative impacts 
of aviation on the environment, whether noise, increasing 
energy consumption, or harmful emissions.
    NASA's aeronautics research programs are addressing these 
challenges and have made significant progress. It is important 
to learn more about this progress because these challenges are 
at the crux of our transition to NextGen, and we must focus on 
NextGen research that will meet these challenges.
    Our witnesses today will probably agree with me that 
carrying research to the level of maturity that allows the 
results to be transitioned to the users, whether private or 
public sector, is critical and requires a greater level of 
investment than is currently being made. If promising 
technologies and operational concepts aren't matured to the 
point that they can be transitioned to the users for further 
development or implementation, the Nation will never receive 
the full benefit of the investment that it has made in 
research. I understand that we are in tough economic times, but 
I hope that this hearing will illustrate how NASA's aeronautics 
research provides a sizable return on the taxpayer's 
investment. So I am eager to hear from our witnesses today on 
how we can ensure that NASA's aeronautics research remains 
vibrant, relevant to the Nation's needs, and contributes to 
maintaining U.S. leadership in the aviation world.
    I thank you, Mr. Chairman, for calling this hearing and I 
look forward to hearing the testimony of our witnesses.
    [The prepared statement of Mr. Costello follows:]

    Prepared Statement of Ranking Minority Member Jerry F. Costello

    Good morning. Thank you, Mr. Chairman, for calling this important 
hearing on the FY 2013 budget request, challenges, and priorities for 
Aeronautics, and I welcome our witnesses.
    Congress has asked NASA to maintain, and I quote from the 2010 NASA 
Authorization Act, ``a strong aeronautics research portfolio ranging 
from fundamental research through systems research.'' More importantly, 
the Act stresses NASA's need to perform research in airspace capacity, 
environmental sustainability, and aviation safety.
    For the past several years, however, NASA has not received the 
necessary funding to fulfill those objectives. This is unfortunate, 
because NASA has an integral role in enabling the strength of the U.S. 
aerospace industry and, in partnership with FAA, the safety of the 
flying public.
    As Ranking Member of the House Transportation and Infrastructure's 
Aviation Subcommittee, I am keenly aware of NASA's importance to U.S. 
aerospace and aviation. A strong aerospace industry enables the United 
States to defend itself, compete in the global marketplace, maintain a 
highly skilled workforce, and provide safe and secure travel to all 
Americans. According to the latest figures available, aviation 
manufacturing and services accounted for $445 billion in direct and 
indirect economic activity in 2006. Aviation provided the Nation with a 
trade surplus of $57.4 billion in 2008
    The explosive growth of aviation over the last several decades has 
also brought its own set of challenges. These include dealing with the 
increasing congestion of the Nation's airspace system, the need to 
maintain safety in the face of increasing travel demand, and the need 
to mitigate the negative impacts of aviation on the environment--
whether noise, increasing energy comsumption, or harmful emissions.
    NASA's aeronautics research programs are addressing these 
challenges, and I hope to learn more about their progress, because 
these challenges are at the crux of the major transition underway in 
modernizing the Nation's air transportation system--NextGen. We must 
focus on NextGen research that will ensure that the Nation's air 
traffic management system will be able to meet anticiapted demand while 
preserving safety and making the whole experience a lot more pleasant 
than it is now for the average traveler. We also need to focus on 
developing technologies that can make aircraft much more energy 
efficient and produce lower levels of harmful emissions. And we need to 
focus on research that will ensure that we maintain the high level of 
safety that we have enjoyed in our aviation sector.
    However, the continued decline in NASA's aeronautics funding is 
making it difficult to maintain an aeronautics research program that 
will be capable of stepping up to the challenges the Nation's aviation 
sector is facing.
    Our witnesses today will probably agree with me that carrying 
research to a level of maturity that allows the results to be 
transitioned to the users--whether private or public sector--is 
critical and requires a greater level of investment than is currently 
made. If promising technologies and operational concepts aren't matured 
to the point that they can be transitioned to the users for further 
development or implementation, the Nation will never receive the full 
benefit of the investment that it has made in that research.
    I understand that we are in tough economic times. But I hope that 
this hearing will illustrate how NASA's aeronautics research provides a 
sizeable return on the taxpayer's investment.
    So I am eager to hear from our witnesses on how we can ensure that 
NASA's aeronautics reseach remains vibrant, relevant to the Nation's 
needs, and contributes to maintaining U.S. leadership in aviation.
    Mr. Chairman, we must keep aeronautics a priority.
    I yield back the balance of my time.

    Chairman Palazzo. Thank you, Mr. Costello.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our panel of 
witnesses, and then we will proceed to hear from each of them 
in order.
    Our first witness is Dr. Jaiwon Shin, Associate 
Administrator for NASA's Aeronautics Research Mission 
Directorate, a position he has held for four years. Previously, 
he served as Deputy Associate Administrator for Aeronautics for 
four years, and he served in research and executive positions 
at the Glenn Research Center in Ohio. Dr. Shin received a 
doctorate in mechanical engineering from Virginia Tech.
    Our second witness is Ms. Marion Blakey, Chair of the NASA 
Advisory Council Aeronautics Committee. Ms. Blakey is currently 
President and Chief Executive Officer of the Aerospace 
Industries Association. Previously, she served as Administrator 
of the Federal Aviation Administration as Chairman of the 
National Transportation Safety Board and has held a number of 
other senior positions in the executive branch. Ms. Blakey is a 
graduate of Mary Washington College.
    Our third witness is Dr. Wesley Harris, who chaired the 
National Research Council's Committee to Assess NASA's 
Aeronautics Flight Research Capabilities. Dr. Harris is the 
Charles Stark Draper Professor of Aeronautics and Astronautics 
at the Massachusetts Institute of Technology. He served as head 
of the Department of Aeronautics and Astronautics at MIT from 
2003 to 2008 and prior to that served as NASA Associate 
Administrator for Aeronautics from 1993 to 1995. He earned his 
bachelor's degree in aeronautics engineering from the 
University of Virginia and his master's and doctorate degrees 
in aerospace from Princeton.
    Our final witness will be Dr. John Tracy, who serves as 
Chair of the National Research Council's Aeronautics Research 
and Technology Roundtable. Dr. Tracy is Chief Technology 
Officer and Senior Vice President for Engineering, Operations 
and Technology for The Boeing Company. Dr. Tracy has spent most 
of his career at Boeing in a variety of senior management 
positions. He received his Ph.D. in engineering from the 
University of California-Irvine, and he is a Fellow of the 
American Society of Mechanical Engineers, the American 
Institute of Aeronautics and Astronautics, and the Royal 
Aeronautical Society.
    As our witnesses should know, spoken testimony is limited 
to five minutes each. After all witnesses have spoken, Members 
of the Committee will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Shin, to present his 
testimony.

                 STATEMENT OF DR. JAIWON SHIN,

              ASSOCIATE ADMINISTRATOR, AERONAUTICS

                 RESEARCH MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Shin. Chairman Palazzo and Ranking Member Costello and 
Members of the Subcommittee, thank you for this opportunity to 
testify on NASA's aeronautics research program and the R&D 
challenges in aeronautics.
    Aviation is an integral part of our daily lives, a critical 
part of the foundation of our economy, and a source of strength 
in the global market. You are watching the visualization of 
actual airline flights around the globe and in the United 
States. This self-tour is called Future ATM Concepts Evaluation 
Tool, or FACET, developed by NASA, which won NASA'S 2010 
Government Invention of the Year. This is a very important 
research tool that benefits both NASA and FAA for understanding 
and designing a more efficient National Airspace System. In 
addition, it provides all of us a true appreciation for the 
complexity of today's air transportation system and challenges 
we are facing.
    Although the Nation's air transportation system is safe and 
efficient, it faces several national-level challenges. 
Improving mobility is a challenge because it requires 
increasing capacity while saving fuel. Our Nation spent over 
$70 billion in 2010 on aviation fuels. A related challenge is 
to limit the environmental footprint of aviation. We must 
reduce the emissions and minimize aircraft noise. Today's air 
transportation system is the safest mode of transportation. It 
is essential to ensure that the current safety level is 
maintained and even improved as the system is becoming more 
complex and automated.
    This short video shows how flights are placed in holding 
patterns as a storm system is moving into the very busy New 
York airspace. Some of the holds start as far away as the 
Pennsylvania and Ohio state line. Many of the incoming 
international flights with very low fuel left on board zigzag 
to delay their arrival into New York. Flight delays and 
cancellations are costing the country an estimated $31 billion 
each year.
    To address these national-level challenges, the pressure 
for technological improvement is mounting. The U.S. aviation 
industry currently enjoys a strong position in the global 
market. Technological superiority has been a key enabler, 
bringing a positive trade balance of over $40 billion per year. 
The aviation industry provides high-tech and high-paying jobs 
that Americans are proud to have, accounting for nearly one 
million jobs. The critical challenge and opportunity facing the 
U.S. aviation industry is to retain this leadership in this 
growing and increasingly complex market through infusion of new 
technology.
    NASA-developed technologies are in the DNA of almost all of 
the modern civilian and military aircraft. NASA continues to 
lay the foundation for the future of flight by exploring new 
ways to manage air traffic, build more fuel-efficient and 
environmentally friendly airplanes, and ensure aviation's 
outstanding record. Investment in aeronautics technology 
stimulates the economy and contributes to the Nation's global 
competitiveness through the creation of new products and 
services.
    To accomplish this comprehensive research agenda, NASA's 
budget provides $551 million to the Aeronautics Research 
Mission Directorate in fiscal year 2013. Our research agenda 
has been created in partnership with the broader aerospace 
community. NASA, the FAA and five other federal agencies 
together are defining the vision to the Next Generation Air 
Transportation System, or NextGen, and establishing the roadmap 
to get there. NASA aeronautics seeks to enhance implementation 
and the capabilities of NextGen, innovating both air traffic 
management and vehicles to achieve the full potential of 
NextGen and lead the country with a vision and revolutionary 
capabilities for the Nation's future aviation system.
    To enhance implementation and the capabilities of NextGen, 
NASA and the FAA have established research transition teams, or 
RTTs, to develop joint research plans, fund our respective 
portions, and facilitate handoff from NASA to FAA of the 
research results. A recent GAO report identified RTTs as a 
federal best practice for interagency collaboration.
    One such RTT example is NASA's Efficient Descent Advisor 
technology. By enabling airplanes to descend on the optimal 
continuous path, this technology will save fuel and reduce 
noise for neighboring communities. NASA estimates $300 million 
in fuel savings per year if EDA is implemented fleet-wide at 
the Nation's busiest airports. This type of capability not only 
will help more efficient operations but also will show the 
airlines the return on investment they can achieve by equipping 
the aircraft with NextGen avionics.
    NASA's innovative technologies such as lighter and more 
durable composite materials and structures; low-emissions 
combustor technologies; lightweight, durable, high-temperature 
alloys for turbine sections of engines; and chevron nozzles to 
reduce engine noise can be seen in new products entering the 
market today. These new vehicles hold the promise of reducing 
fuel consumption to 20 percent, longer operational life, and 
lower maintenance costs, all due to infusion of advanced 
technology.
    Today, we are continuing our tradition of being the 
innovative engine in aeronautics R&D to help achieve the full 
potential of NextGen. For example, we are exploring new 
aircraft configurations like the hybrid wing body shown in this 
video, as seen from the chase-plane camera. Studies show that 
this kind of new configuration, combined with lightweight 
composite materials and advanced engines, can reduce fuel 
consumption by 50 percent and reduce the noise footprint to 
one-sixth of what it is today. We have successfully completed 
over 90 flights with this X-48 test bed.
    We are also leading the country today with a fundamental 
understanding and new concepts to meet new emerging challenges 
20 and 30 years from now. For example, NASA has funded 
industry-academia teams to develop new vehicle concepts that 
could achieve our aggressive efficiency and environmental goals 
in the future. Those teams also created technology development 
roadmaps to help NASA and industry to prioritize research 
investments in the coming years.
    NASA does not build aircraft engines or air traffic 
management systems. Through our cutting-edge research, we 
develop the concepts, tools, and technologies that enable 
continuous innovation in aviation. We focus on priority 
research challenges of greatest relevance to the community 
where NASA has a unique contributing role and can have the 
greatest impact. We invest in a balanced portfolio of 
analytical research, research through high-fidelity 
stimulation, ground testing and flight demonstration and 
validation. We challenge the aeronautics community to think big 
and to reach far by developing new concepts for flights such as 
those represented on the table in front of me. U.S. companies 
are well positioned to build on discoveries and knowledge 
resulting from NASA research, turning them into commercial 
products benefiting the quality of life for our citizens, 
providing high-quality jobs, and enabling the United States to 
remain competitive in the global economy.
    Thanks so much for allowing me to represent NASA 
aeronautics today. I will be glad to answer any questions you 
may have.
    [The prepared statement of Mr. Shin follows:]
    [GRAPHIC] [TIFF OMITTED] 74060.012
    
    [GRAPHIC] [TIFF OMITTED] 74060.013
    
    [GRAPHIC] [TIFF OMITTED] 74060.014
    
    [GRAPHIC] [TIFF OMITTED] 74060.015
    
    [GRAPHIC] [TIFF OMITTED] 74060.016
    
    [GRAPHIC] [TIFF OMITTED] 74060.017
    
    [GRAPHIC] [TIFF OMITTED] 74060.018
    
    [GRAPHIC] [TIFF OMITTED] 74060.019
    
    [GRAPHIC] [TIFF OMITTED] 74060.020
    
    [GRAPHIC] [TIFF OMITTED] 74060.021
    
    [GRAPHIC] [TIFF OMITTED] 74060.022
    
    [GRAPHIC] [TIFF OMITTED] 74060.023
    
    Chairman Palazzo. Thank you, Dr. Shin.
    I now recognize Ms. Blakey for five minutes to present her 
testimony.

                STATEMENT OF MS. MARION BLAKEY,

                 CHAIR, AERONAUTICS COMMITTEE,

             NASA ADVISORY COUNCIL, AND PRESIDENT,

                AEROSPACE INDUSTRIES ASSOCIATION

    Ms. Blakey. Thank you, Chairman Palazzo and Ranking Member 
Costello. I am delighted to be here with you and other Members 
of the Committee. I also want to say how grateful I am to be 
able to discuss NASA's aeronautics budget and programs for the 
coming year because they are tremendously important.
    I am Marion Blakey, President and Chief Executive Officer 
of the Aerospace Industries Association, the Nation's premier 
trade association for aerospace and defense manufacturers. 
However, today I am not here representing AIA but representing 
instead the chairmanship and committee of the NASA Advisory 
Council's Aeronautics Committee.
    The Aeronautics Committee reports to NASA's Advisory 
Council and meets approximately three times a year. Our job is 
to review NASA's aeronautics research and testing programs and 
provide independent advice to the council and NASA leadership, 
including Dr. Shin. Although we review NASA's programs with an 
independent critical eye, we do have an excellent working 
relationship with Dr. Shin and his staff, and we appreciate 
their ongoing support.
    Mr. Chairman, overall, ARMD provides important support to 
the Nation's aeronautics research efforts. NASA takes the lead 
in fundamental research into revolutionary aircraft concepts. 
They take a comprehensive, integrated look at systems-level 
solutions and they have unique testing facilities that really 
exist nowhere else. They push the boundaries of our 
aeronautical knowledge and transition new hardware and software 
to the marketplace.
    You ask whether ARMD research matches up with the needs of 
industry. On balance, I do believe Dr. Shin's office is 
pursuing the right research with the right priorities. Let me 
touch on three examples, if I might: environmental research, 
UAS integration, and NextGen programs.
    NASA is heavily involved in research to make our aviation 
system more environmentally friendly. U.S. manufacturers lead 
the world in developing quieter, more fuel-efficient aircraft. 
The industry has agreed to a cap on carbon dioxide emissions 
from aircraft, which is called carbon-neutral growth, by the 
year 2020. This is very aggressive and, believe me, is well 
beyond what any other global industry has agreed to, and NASA 
is helping us achieve those goals. For example, the 
Environmentally Responsible Aviation, ERA, project is 
developing advanced air vehicle concepts that could reduce fuel 
burn by 40 percent, cut aircraft noise to stage IV levels and 
below, and cut nitrous oxide emissions by 75 percent.
    NASA aeronautics is also an important player in our efforts 
to develop and certify alternative jet fuels. NASA is also 
involved in unmanned aerial systems, UAS, and their integration 
into the national airspace. As you know, recent legislation 
requires that UAS systems be integrated into the NAS by the 
year 2015--very aggressive. NASA is working with the FAA to 
develop an interagency roadmap for UAS integration. Because 
this work is evolving so rapidly, the aeronautics committee 
that I chair established a special UAS subcommittee this past 
December, and we are going to have more to say on this as the 
committee works, but it wholeheartedly supports NASA's UAS 
activities.
    The third and final area that I would like to highlight is 
NextGen. We see that there is real potential for NASA-developed 
technologies to contribute to NextGen and tools like NASA's 
Efficient Descent Advisor that Dr. Shin just mentioned, and the 
Airborne Merging and Spacing tool are very important parts of 
this effort. These technologies demonstrate NextGen's value in 
our terminal airspace and they are mature enough to transfer to 
operational use. In fact, EDA transitioned to FAA for 
operational use just last November.
    Mr. Chairman, for a final moment, let me address NASA's 
fiscal year 2013 budget request. The request is $17.9 million 
below the current year, including a reduction of $20 million. 
This is in hypersonics research. In 2006, only six years ago, 
hypersonics programs were funded at $70 million. Under the 
President's budget for next year, it would be cut to $4.5 
million. Maintaining an effective hypersonics program will be a 
challenge if additional funding is not provided. Therefore, we 
are very pleased to see that the House Appropriations 
Subcommittee has just recommended that these cuts be rejected 
because we believe hypersonics research is very important in 
today's world.
    Mr. Chairman, that completes my summary, and I look forward 
to answering your questions. Thank you.
    [The prepared statement of Ms. Blakey follows:]
    [GRAPHIC] [TIFF OMITTED] 74060.024
    
    [GRAPHIC] [TIFF OMITTED] 74060.025
    
    [GRAPHIC] [TIFF OMITTED] 74060.026
    
    [GRAPHIC] [TIFF OMITTED] 74060.027
    
    [GRAPHIC] [TIFF OMITTED] 74060.028
    
    [GRAPHIC] [TIFF OMITTED] 74060.029
    
    [GRAPHIC] [TIFF OMITTED] 74060.030
    
    [GRAPHIC] [TIFF OMITTED] 74060.031
    
    Chairman Palazzo. Thank you, Ms. Blakey.
    I now recognize Dr. Harris for five minutes to present his 
testimony.

             STATEMENT OF DR. WESLEY HARRIS, CHAIR,

             COMMITTEE TO ASSESS NASA'S AERONAUTICS

                 FLIGHT RESEARCH CAPABILITIES,

                   NATIONAL RESEARCH COUNCIL,

               AND CHARLES STARK DRAPER PROFESSOR

                OF AERONAUTICS AND ASTRONAUTICS,

             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Mr. Harris. Mr. Chairman, Ranking Member Costello, Members 
of the Committee, colleagues, I am Wesley Harris, Chair of the 
National Research Council's Committee to Assess NASA's 
Aeronautics Flight Research Capabilities. It is a pleasure to 
come before you to speak to you about the work of the 
committee. In 2011, NASA asked the National Research Council to 
undertake a study of NASA's flight research capabilities. I am 
here to report the results of that study.
    Our committee consists of members of industry and academia, 
former NASA aerospace officials, aircraft designers, test 
pilots, and even an Apollo moon walker. We met several times 
throughout 2011. We visited NASA centers involved in flight 
research. We heard from numerous NASA and industry 
representatives. We received extensive cooperation from the 
agency for which we, the committee, are very grateful.
    Many people may not be aware that unmanned aerial vehicles 
are a vital part of America's national security and a highly 
dynamic part of our aerospace industry, something and somewhere 
that the United States remains the world leader. What few 
people realize, however, is that during the 1990s, NASA played 
a major role in making this happen by supporting the 
development of multiple advanced UAV designs with efficient and 
effective aeronautical flight research, thereby spawning 
industry that is still active today. This was an industry where 
the United States was behind. It now leads. NASA played a major 
role in that, and we believe that NASA should receive 
recognition for this achievement.
    Flight research is only one part of a healthy aeronautics 
research enterprise. It is absolutely vital. Flight research is 
vital. It stands in value equal to that of wind tunnel testing, 
to theory and simulation. A common-held misconception is that 
flight research is something that comes at the end of a 
research program. However, in many cases, it is necessary for 
that research to occur, that is, flight research to occur in 
the middle of the program. For instance, it is very common in 
the aeronautics R&D world to update sophisticated computer 
simulations based upon data collected by actually flying a 
vehicle.
    Since the middle of the past decade, NASA has dramatically 
reduced its flight research to focus more on ground-based 
investigations and activities in what NASA describes as its 
fundamental research program. In the committee's opinion, most 
flight research today can be characterized as limited in scope, 
such as putting a new structure on or under the wing of an 
existing airplane, for example, an F-15, or flying a small-
scale UAV. There are limited flight vehicles currently flying, 
that is, aircraft specifically designed for research such as 
the famed X planes. NASA has tremendous potential and capital 
resources. However, the committee concluded that those 
resources could be better used to conduct the kind of flight 
research that would expect and inspire more future generations 
of aeronautical engineers and that is required to make advances 
on the frontiers of knowledge and functionality.
    Our committee recommended that NASA should start from two 
to five focused, integrated, high-risk, high-payoff programs 
with total budgets of $30 million to $50 million per vehicle 
per program over three years. In order to achieve progress of 
fundamental aeronautics as well as other relevant related 
military requirements, we recommend that these priority-focused 
programs should be drawn from the high-priority research areas 
identified in the 2006 NASA Research Council Decadal Survey of 
Civil Aeronautics.
    The committee concluded that additional funding for 
aeronautics was not a prerequisite for NASA to be able to begin 
to implement these recommendations. This can be done if the 
agency begins to phase out its lower-priority aeronautics 
activities, a process that we believe would facilitate 
implementing two to three new vehicles. If aeronautics receives 
additional funding, NASA could implement three to five 
vehicles. Naturally, there is a tradeoff between size of 
individual projects and the number that the agency could 
pursue. An ambitious UAV project, for example, could be built 
at the lower end of the range, while a more ambitious pilot 
vehicle could be built at the higher end. We encourage the 
agency to aim high in its ambitions.
    The committee also recommended NASA aeronautics research 
projects have a defined path to flight, essentially a roadmap 
that indicates how they intend to conduct actual flight 
research. The like of such roadmaps leads to many current 
projects being canceled before they can be pursued to the 
flight phase and their progress is subsequently lost.
    Our committee notably did not recommend more money for 
NASA's aeronautics program. However, we do believe that it 
could benefit from additional funding. If NASA's budgets shift 
only one percent from its total funding to aeronautics 
research, it would enable substantial new research in several 
vital areas of prime national interest. But in the current 
fiscal environment, we also believe the aeronautics program 
could benefit from reordering its priorities, establishing 
focused goals and eliminating several lower-priority research 
programs if flight research is to be a priority activity.
    During the course of the study, the committee received 
inputs from industry including Boeing, Lockheed Martin Skunk 
Works, Aurora Flight Sciences and other companies. Despite what 
I believe is a common perception that aeronautics is so mature 
that NASA's research role should be limited, it is not an 
attitude that we encountered when we receive input from 
industry. Quite to the contrary, the attitude that industry 
presented to us is one in which NASA can play a vital role in 
helping to develop technologies that industry is too risk-
averse to address. They want NASA to be involved doing what 
NASA does best and what they believe industry cannot do.
    When asked the question of why should NASA be involved in 
aeronautics research, particularly conducting flight research, 
the committee concluded that industry in these economic and 
political times cannot and will not take on full-cost risk of 
moving technologies from laboratory to operations. NASA's 
founding charter tasked the agency to help within this process. 
NASA's role is to develop requirements and asset capabilities 
for the next research vehicles and then work with industry to 
build and test those aircraft. NASA is a highly capable 
organization with many excellent people in the area of 
aeronautics research. The contributions the agency has made and 
continues to make in aeronautical research are significant and, 
in my personal opinion, quite important. NASA's aeronautics 
research directorate should be more broadly recognized for 
these contributions. We were asked, the committee, to look at 
the area of flight research, and having conducted our study, we 
believe that we as a Nation have an opportunity to accomplish 
much more in this research area of prime importance if given 
the opportunity. If we give NASA the tools to take flight, we 
believe, they will soar.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions the Subcommittee might have.
    [The prepared statement of Mr. Harris follows:]
    [GRAPHIC] [TIFF OMITTED] 74060.032
    
    [GRAPHIC] [TIFF OMITTED] 74060.033
    
    [GRAPHIC] [TIFF OMITTED] 74060.034
    
    [GRAPHIC] [TIFF OMITTED] 74060.035
    
    [GRAPHIC] [TIFF OMITTED] 74060.036
    
    [GRAPHIC] [TIFF OMITTED] 74060.037
    
    [GRAPHIC] [TIFF OMITTED] 74060.038
    
    Chairman Palazzo. Thank you, Dr. Harris.
    I now recognize our final witness, Dr. Tracy, for five 
minutes to present his testimony.

              STATEMENT OF DR. JOHN TRACY, CHAIR,

            NATIONAL RESEARCH COUNCIL'S AERONAUTICS

   RESEARCH AND TECHNOLOGY ROUNDTABLE, AND CHIEF TECHNOLOGY 
                            OFFICER

           AND SENIOR VICE PRESIDENT OF ENGINEERING,

         OPERATIONS AND TECHNOLOGY, THE BOEING COMPANY

    Mr. Tracy. Good morning, Chairman Palazzo, Ranking Member 
Costello, and Members of the Committee. On behalf of The Boeing 
Company, I thank you for your continued support of NASA. You 
have enabled NASA to create a balanced aeronautics portfolio 
that continues to enhance the safety, reliability, and 
efficiency of the world's aviation community. It is an honor to 
participate on this distinguished panel and provide Boeing's 
view on aeronautics research and the efforts of NASA's 
Aeronautics Research Mission Directorate.
    In my role as Chief Technology Officer for Boeing, I have 
the great challenge to help our company identify how to invest 
in our future. The topic is central to Boeing's existence as we 
work to build on a 96-year legacy of technical achievement. 
These investments enable our role as a global leader in 
technology and innovation and ensure that our 172,000 employees 
design and create cutting-edge products sought by customers 
worldwide. We agree with the current NASA aeronautics policy, 
which states that the agency should focus on safer, more 
secure, efficient and environmentally progressive air 
transportation system. We also support the strategy of NASA's 
investments in the fundamental basic questions of how to 
improve the technology of our process to more complex systems-
level questions of how best to integrate those new technologies 
in operational concepts.
    My written testimony fully addresses the three questions 
that were asked by the Committee. For this hearing, I would 
like to summarize these responses. I will begin by discussing 
what I believe are the three biggest challenges in aerospace 
and how well ARMD's research portfolio and resources address 
them.
    The first challenge is the wholesale change to the Air 
Traffic Management System. We are working with partners 
worldwide to improve today's global air traffic management 
system in order to enhance aviation safety, improve operational 
environmental efficiency, and enable continued growth in global 
air travel. Our view of a transformational system is based on 
satellite navigation that takes advantage of sophisticated 
airplane flight management systems and other advanced 
technologies. NASA is a critical member of the FAA NextGen 
team, which is implementing a plan for the ongoing 
transformation of the National Airspace System from ground-
based to satellite-based.
    The second challenge is aviation systems and solutions that 
are environmentally responsible. We at Boeing are committed to 
improving the environmental performance of our operations, our 
products and service and our factories. Our new 787 Dreamliner 
airplane burns 20 percent less fuel and has a noise footprint 
that is as much as 60 percent smaller than today's comparable 
airplanes. The technology areas in which we are engaged include 
fuel efficiency and noise reduction, sustainable aviation 
biofuels, more efficient flight operations, and airplane 
production and recycling. These areas align with the aims of 
NASA's environmentally responsible aviation program, whose 
goals include noise reductions of 42 decibels below current 
levels, a 75 percent reduction in emissions, and a 50 percent 
reduction in fuel burn below today's standards.
    The third challenge is advanced testing and evaluation by 
analysis and simulation for integrating complex aviation 
systems and accelerating their verification and validation. A 
future NASA focus on fundamental technologies and 
multidisciplinary processes for faster and more efficient 
design and certification through high-fidelity virtual testing 
would increase opportunities to develop and field new vehicle 
systems. Software development and certification is a large and 
growing cost to civil aviation. This complex systems 
engineering including verification and validation and 
fundamental software engineering needs to be addressed through 
long-term research.
    Now I would like to address ARMD's strategy of supporting a 
broad portfolio of research and the question as to whether ARMD 
at its current funding levels would be more effective by 
focusing its resources on high-priority activities such as 
flights that Dr. Harris mentioned. In our view, NASA has done 
an excellent job of addressing the critical subset of aviation 
issues in its broad portfolio. The agency continues to work 
with aeronautics stakeholders to prioritize current initiatives 
within budget constraints. This fundamental research is the 
seed corn that forms the basis for next-generation 
capabilities. But in light of current funding levels, NASA has 
been limited in its ability to do flight research, which is key 
to the next step in maturing its fundamental research into a 
dynamic flight regime. Based on historical costs associated 
with flight demonstration, further emphasis in this activity 
would need to be above and beyond the budget level that NASA 
ARMD receives for this critical research.
    Lastly, I would like to offer my perspective on whether 
ARMD advances technologies to a state of maturity that enables 
their adoption by industry. The commercialization of 
aeronautics knowledge into products and services for the market 
is the responsibility of private industry. NASA has played an 
invaluable role in creating a foundation of knowledge that can 
be deployed by industry to serve the public. For instance, 
NASA, like its European counterpart, has been funding research 
into improving the Air Traffic Management System. It is 
critical, of course, that the collaborative NASA and industry 
research activity be consistent with the obligations of our 
trade treaties but there is much valuable work for NASA to 
promote within these bounds.
    In closing, funding NASA's aeronautics activity in a 
balanced portfolio is, in our opinion, the right approach. 
NASA's work supports efforts to advance the safety, 
reliability, and efficiency of the Nation's aviation system and 
the work NASA is doing for improving the environmental 
footprint for aviation is absolutely critical for our country's 
future. The balanced portfolio will help America strengthen its 
global stature as a leader in technology.
    I appreciate very much the opportunity to testify in front 
of this Committee today.
    [The prepared statement of Mr. Tracy follows:]
    [GRAPHIC] [TIFF OMITTED] 74060.039
    
    [GRAPHIC] [TIFF OMITTED] 74060.040
    
    [GRAPHIC] [TIFF OMITTED] 74060.041
    
    [GRAPHIC] [TIFF OMITTED] 74060.042
    
    [GRAPHIC] [TIFF OMITTED] 74060.043
    
    [GRAPHIC] [TIFF OMITTED] 74060.044
    
    Chairman Palazzo. Thank you, Dr. Tracy, and I thank the 
panel for their testimony. I will remind members that Committee 
rules limit questioning to five minutes. The Chair will at this 
point open the round of questions. The Chair recognizes himself 
for five minutes.
    Dr. Shin, I am going to have three related questions. 
First, how does NASA ensure that its portfolio of fundamental 
research projects remains relevant and that research projects 
don't become stale? Second, what mechanism does NASA have in 
place to determine when fundamental research should be advanced 
to a higher level or, alternatively, to cease further 
investment in research results if they are disappointing? And 
third, as you look across your portfolio, what is an 
appropriate balance between fundamental and higher integrated 
levels of research?
    Dr. Shin. Thank you, Chairman. I think, on the first 
question, we have now several national-level guidance documents 
starting from national aeronautics R&D policy and plan, which 
we as a Nation never had for almost 100 years since the Wright 
brothers powered flight was accomplished. So that policy and 
plan was developed by all the departments and agencies that 
have any stake in aeronautics R&D and certainly NASA, DOD, FAA 
and Commerce and Homeland Security are pretty major players 
there. So out of those goals and objectives identified in the 
national-level document, we have constructed our research 
portfolio aligned with that and also we have Joint Planning and 
Development Office, the JPDO, which is consisted of seven 
Federal Government agencies. So I think, in terms of 
identifying the national challenges, many of the witnesses 
spoke about the same kind of areas for national needs--safety, 
NextGen, environmental impact and energy-efficient aircraft. I 
would be happy to report to you, Chairman, the NASA programs 
are well aligned with those national-level challenges. To 
further the relevance, we have reorganized aviation safety 
program and airspace systems program in the last three years 
and we are also reorganizing, in the process of reorganizing 
fundamental aeronautics program this year. So we are far more 
focused and streamlined and much more relevant to users' needs, 
and there are ample evidence that we are transferring 
technologies to the users. So a longwinded answer but that 
would be my response to the first question.
    And higher-level activities, if we don't produce intended 
results from sort of low-technology readiness-level research, 
how do you phase that out or cancel that activity? I think that 
was your second question. I would like to describe our research 
portfolio and endeavor as organic. Certainly, the research 
needs to be nimble because we don't know how the research will 
pan out. That is the major high risk of high-payout research. 
So we do have a rigorous review process both at the research 
centers and headquarters periodically, and as I am speaking, we 
are actually conducting a six-month review at headquarters of 
all our projects. So going through these reviews, we make sure 
that progress is being made, and if we don't make the intended 
progress, we certainly take the lessons out of it and then we 
phase the activities. We have done many of those to date.
    In terms of balance between fundamental research and a 
little higher level of research, I believe within the given 
budget that Congress graciously allowed us to have $570 million 
this year. Within that budget, I believe the proportion between 
fundamental research and integrated system-level research is 
about right from all the community inputs and discussions we 
had, and given my experience, having been in aeronautics for 
20-some-odd years, I think it is very important to note that 
maintaining fundamental research is crucial for the future of 
our aviation industry as Dr. Tracy pointed out, that you don't 
want to eat your seed corn to beef up higher-level research if 
the funding is such that you have to make a balance. Sorry for 
the long answer.
    Chairman Palazzo. No, thank you, Dr. Shin.
    I now recognize Mr. Costello for five minutes.
    Mr. Costello. Mr. Chairman, thank you. We all recognize 
that we are facing many challenges with the federal budget 
because of deficits, but I think we also recognize, at least 
most people in the industry, that the historical decline of 
NASA's aeronautics budget has had a negative impact on the 
industry. And I am wondering if the aeronautics program at NASA 
was given sustained funding over a period of time as opposed to 
just an infusion of funds in one fiscal year, what would be the 
most productive use of the additional funding? And I would ask 
Dr. Shin, what would you do with the additional funding if you 
knew that you were going to see an increased funding level over 
the next five years as opposed to the infusion of funds one 
year and then a reduction the following year? What would the 
number one priority be?
    Dr. Shin. Thank you, Ranking Member Costello. I think the 
number one priority would be in my view, again, doing more 
flight research and bringing X plane into our research mix. We 
do have a few test paths, but I think we can certainly do more. 
So that would be my most priority, sir.
    Mr. Costello. Ms. Blakey, I would ask the same question of 
you. One, first, would you agree with most in the industry that 
the historical decline of aeronautical funding has had a 
negative impact, number one, and number two, if, over the next 
five years or so, if we saw an increased level of funding to 
NASA, what do you think the number one priority should be for 
the agency to do with the additional funding?
    Ms. Blakey. Certainly there is no doubt about the fact that 
our technological advances, which is what this country is known 
for, would have gone much faster, and it is hard to know what 
we don't know, what we didn't do because of the rather 
precipitous decline in NASA's budget. As we all understand, 
they were well above $1 billion for many years and over $2 
billion, and now we are in the $500 million range. You cannot 
have that kind of reduction without having a major impact in 
terms of our innovation and technologies across the aviation 
and aeronautics industry. Flight research is critical. There is 
nothing that substitutes for building it and flying it.
    And in the area that I highlighted, hypersonics, there is 
tremendous potential. I will show you something because I saved 
this. This is a brochure from 1986, and it shows our plans for 
the national aerospace plane. It is a beautiful thing, and this 
is what our country had in mind and President Reagan called 
for, but we simply were not able to engage in this at the time, 
and hypersonics still offers a potential for continent-to-
continent rapid flight, propulsion into space and really 
inspiring young people in a way that we haven't seen since the 
Apollo program. So I would suggest, let us not leave this 
behind; it is a part of fundamental research and it should be a 
part of flight test.
    Mr. Costello. Let me ask another question of you, Ms. 
Blakey. You and I have worked together on NextGen through the 
Aviation Subcommittee. One of the problems that the FAA has 
had, and it has been cited as to why NextGen has fallen behind 
on the schedule, on the proposed schedule, by both the FAA and 
the JPDO, is that the FAA underestimated the complexities of 
the software development to implement NextGen. With NASA's vast 
knowledge in developing automated systems, I wonder if there is 
anything in your opinion that NASA could be doing to help the 
FAA with this problem?
    Ms. Blakey. Well, I will be honest about this, because I 
was there at the early stages of NextGen when we were looking 
for more research capability out of NASA, and because NASA at 
that point had a very strong emphasis on fundamental basic 
research and not taking it to the higher TRL levels, we found a 
gap, and I talked to Mike Griffin about it and others at the 
time because I think that would have helped FAA advance itself 
much more quickly.
    I will say this. As you know, in my current position, I 
have reason to work with a lot of very fine minds in the 
defense arena, and I have heard more and more their comments 
about NextGen, saying it is the most complex development 
program they have run across, and you know what the military in 
this country has done. So it is not easy. I do want to caution 
on that, and I think there are inevitably, therefore, schedule 
slips that occur.
    But that said, NASA's current approach to transferring 
software that works in terms of a lot of the capabilities of 
NextGen, it really is a vital asset. So I hope we will be able 
to keep it up.
    Mr. Costello. Dr. Harris, you mentioned in your testimony 
that the Committee didn't recommend additional funding. I 
wonder, going back to my first question, if the agency knew 
that over the next five years that they were going to receive 
sustained funding and increase, what would be the number one 
priority in your opinion? Where should they direct that money?
    Dr. Harris. Thank you for the question. The Committee was, 
I thought, very firm in its position in terms of a focus on 
flight research that would lead to substantial advancement of 
aeronautics for the less. We examined three cases in depth. We 
also looked across all of the programs within ARMD. We firmly 
believe that resources should be directed toward those highly 
focused, highly integrated projects that require flight 
research that would lead to a spawning of an industry.
    For example, business jets. How do we move NASA to flight 
research to ensure that we can fly within limits of the sonic 
boom that it is not a nuance or a noise inhibitor? That, we 
believe, is a major breakthrough that we are on the edge of, 
and if we move forward with that and similar kinds of research, 
we will enable the development of more high-skilled, high-wage 
jobs, more market share for our industry, a positive return to 
our taxpayers' investment.
    If NASA were to obtain sustained funding, it should 
continue to focus or should focus on high-payoff flight 
research that leads to an advancement of our industry.
    Chairman Palazzo. I now recognize the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I am a 
bit perplexed by this; we all are. We have half the budget for 
the federal budget is being borrowed now. We are spending that 
much more than we are taking in. It is over $1 trillion a year. 
So I imagine everybody in this room knows that something has to 
be done, and it seems that every time you are a member of a 
committee that focuses on one aspect of the budget, it is 
always the other guys who need to be cut.
    I think $500 million is a lot of money, and I know it is 
less than what we had before. It was less than the $1 billion 
that we had before. First of all, let me ask Dr. Shin. How many 
people will be laid off as a result of this?
    Dr. Shin. No one would be laid off, sir, because the 
current budget has been stable for the past three or four 
years. So we have budgeted or constructed our work and the work 
force to the budget. So no one will be laid off. This budget 
reduction that some of the witnesses mentioned happened years 
ago.
    Mr. Rohrabacher. Okay. So actually the reduction from $1 
billion to $551 million will not result in a layoff of federal 
employees?
    Dr. Shin. No, sir.
    Mr. Rohrabacher. Well, I think that is important. I mean, I 
don't understand why it is when the private sector has to cut 
back that people are let go, realizing that they can no longer 
afford their work, but we can't seem to let go of any federal 
employees.
    Let me ask about the private sector here, especially Boeing 
company. First of all, if Boeing was going to have this 
reduction in the amount of money available to Boeing, I would 
imagine there might be a few layoffs, is that correct?
    Dr. Tracy. Mr. Rohrabacher, in a commercial setting, I 
think that is true. If there are reductions in budget, then you 
have to find ways to balance the books.
    Mr. Rohrabacher. You might even reduce the number of 
projects that you were working on.
    Dr. Tracy. Yes, sir, that is true. I am an engineer, not an 
economist, sir, so forgive me. My feeling is that the NASA 
budget that we are talking about here is an investment to try 
and drive, from our perspective, a large sector of the economy. 
I believe that commercial aviation is probably the largest 
contributor to positive balance of trade, and it literally is a 
significant fraction----
    Mr. Rohrabacher. No doubt about it.
    Mr. Tracy [continuing]. Of major post-domestic product. So 
that is why we are interested, because this research does make 
a great contribution to that.
    Mr. Rohrabacher. Well, I am not sure. If we can actually 
cut the budget and you don't have to let anybody off, I mean, 
this is--I know you are an engineer, and engineers, maybe if 
you could make the same thing with fewer people, I mean, we are 
keeping the same people. Usually you would say you are going to 
have to be doing less. If you have less money, you have less 
personnel.
    Let me just suggest that there is a lot of research going 
on in the private sector, and maybe Ms. Blakely could tell us 
about that, research that is going on in the private sector. 
Can they pick up, can companies like Boeing and others pick up 
hardware costs? It sounds like to me if you are not going to 
reduce the number of people working, what we are reducing is 
wind tunnels and things such as that. Is it possible that the 
private sector could pick up those capital costs that are now 
being funded by the government?
    Ms. Blakey. Well, Congressman Rohrabacher, as you know from 
a number of the companies that you know very well, they do 
tremendous amounts----
    Mr. Rohrabacher. They do.
    Ms. Blakey [continuing]. Of R&D work. And they also work in 
close partnership with NASA. They lease the use of those wind 
tunnels, pay good private-sector money to be able to take 
advantage of what essentially is an investment the government 
made to make this early innovation happen. Tremendous amounts 
of R&D go from our companies into the air and fly. What they 
are not able to do though is this very fundamental basic 
research which is where government always has had an important 
role. That then translates to the kind of technological 
advantage we enjoy worldwide. But it has always come, almost 
always, and I won't say always because there were the Wright 
brothers. I don't think they were working on a government 
grant. But the fact of the matter is a great deal has come from 
the military's research and from research at NASA.
    Mr. Rohrabacher. Mr. Chairman, I would suggest that while I 
am very supportive of the development technology, that my guess 
sometimes when people cut back, sometimes it makes different 
operations demand more efficiency. That is what happens in the 
private sector. It is a little bit disconcerting to know that 
we are cutting back, and there isn't any change in personnel. 
That does not reflect to me the way things should go.
    And one last note and that is if we spent $551 million on 
this research, my guess also is that we are providing a subsidy 
to those countries that steal our technology and steal the 
research. Thus, we are not just carrying the load for our own 
businesses. We are carrying the load for China's new space 
program. Hunky dory. Thank you very much, Mr. Chairman.
    Dr. Shin. Sir, could I offer just one thought?
    Mr. Rohrabacher. Sure, go right ahead.
    Dr. Shin. I want to make----
    Mr. Rohrabacher. Proceed.
    Dr. Shin. Yes, I want to make sure that my response earlier 
was not misunderstood. When aeronautics budget was close to $1 
billion or a little bit over $1 billion back in late 1990s, of 
course we had a lot more people working on aeronautics. So I 
want to make sure that the response that I provided to you, 
sir, was for $570 million level budget, that has been going on 
three or four years. And because of that, the reduction 
happened many years ago and the number of workforce working on 
aeronautics has come down quite a bit.
    Mr. Rohrabacher. Yeah, I don't quite understand that. I 
thought we were talking about budget reduction here.
    Dr. Shin. That budget reduction happened many years ago, 
several years ago.
    Mr. Costello. I wonder if my friend from California would 
yield?
    Mr. Rohrabacher. Well, actually, it is the Chairman's time. 
Mr. Chair.
    Chairman Palazzo. We are being pretty flexible with the 
five-minute rule today, so if Mr. Rohrabacher wants to----
    Mr. Rohrabacher. Sure, go right ahead.
    Chairman Palazzo [continuing]. Give you what time he has 
left.
    Mr. Costello. I want to clarify a point here just for my 
information, because I think Mr. Rohrabacher makes some pretty 
good points here, but one is that this isn't a $500 million 
reduction from one year to the next. This has gone back three 
or four years. Two, I don't know the level of funding that NASA 
uses out of when you were at $1 billion or if you are at $551 
million. How much of that money actually stays in the agency 
and supports employees in-house versus what you contract out to 
many private-sector companies that are members of Ms. Blakey's 
association? Am I wrong about that? Is all the $551 million, if 
that is what the funding level is, does that all stay in house 
or you contract out with Boeing and many other companies to do 
research with NASA, is that correct?
    Dr. Shin. Yes, that is very correct. We do support in-house 
capability because that is one of the charters for NASA 
aeronautics. But roughly I think about 40 to 45 percent goes 
out to out-of-house to certainly industry and universities and 
others.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentlelady from 
Maryland, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and to our witnesses 
today. I just want to point a couple of things out for the 
record, that in 2004 the research budget was roughly seven 
percent of the overall agency budget, and by this time, it has 
leveled off to three percent. That is more than double a 
reduction in the research budget, at a time when in 2006 the 
Decadal survey actually recommended enhancing areas of research 
that we are focused on today, and I think that that is an 
important reminder to us, that we had a Decadal survey done of 
the needs in civil aeronautics with recommendations, and we 
have done exactly the opposite in terms of funding those areas 
of recommendation that we paid for in 2006. So I don't really 
get that but I offer that for the record.
    Dr. Harris, in your testimony, you indicated the maturity 
of the industry, and I think that that is true. But the 
question for me really is about the future of our leadership in 
aeronautics and in whether we are able to, in a robust way, 
develop new and innovative technologies that are dependent on 
core research to continue our competitive advantage. And so to 
me these are questions that are really about the future.
    And I think, you know, going to some other issues that are 
not the jurisdiction of this committee about expanding and 
making permanent research and development tax credits and 
enhancing a domestic manufacturing credit that I think would 
greatly benefit both the stability of what we are doing in 
research but also the growth in aeronautics. Now, that said, 
there is something about fundamental core research that each of 
you has offered testimony for our record. Dr. Tracy, I think in 
your testimony you indicate that Boeing spent about $3.9 
billion in R&D. How much of that is fundamental research?
    Dr. Tracy. Congressman Edwards, that amount you mentioned 
does include both product development and technology. We don't 
publically break out the split between the two, but it is a 
substantial number measured in billions, the amount that goes 
toward technology.
    Ms. Edwards. But that goes toward fundamental research, 
toward basic research?
    Dr. Tracy. Yes, ma'am.
    Ms. Edwards. And so would you say, though, Ms. Blakey, that 
in the industry, I mean, as you have indicated, that part of 
the reason that you are able to spend, that a lot of the 
industry is able to spend money on its core research is also 
because you are dependent on the research that comes out of 
NASA and out of the aeronautics research, and if that had to be 
then put onto the backs of the industry, is it your view, Ms. 
Blakey, that the industry would be able to do all of that?
    Ms. Blakey. Well, Boeing, of course, is in a very powerful 
position to make these kinds of investments. But remember, the 
industry is populated by thousands and thousands of smaller 
businesses. Innovation in this country is driven significantly 
by small businesses, but they are not able to do the kinds of 
things that involve big investments and test facilities and 
work at the most academic level that really is undertaken by 
NASA with the university community. That is not what a small 
business can do, but they can pick up the advances there and 
then bring them into the marketplace. And that is what is a 
very exciting chain that goes on.
    Ms. Edwards. Dr. Tracy?
    Dr. Tracy. Congresswoman Edwards, Dr. Harris talked about 
the maturity of the field, because it is 100 years old, but 
there is no shortage of things to work on. The progress that we 
are making today in aviation, aeronautics in particular, is 
absolutely outstanding and it is astounding. And so we count on 
being able to work jointly with NASA to investigate some of the 
higher-risk things. It probably won't see commercial use for 20 
years, but we need to have work going on them today to make 
sure that the pipeline is filled, and some of these very 
advanced technologies will be ready when companies like ours 
are able to commercialize them.
    Ms. Edwards. And I think that you draw the same conclusion 
that if we don't do that, we will look 100 years down the line 
and not have made the kinds of advancements that will actually 
allow our domestic industry to be at the top of its game the 
way that it is today, isn't that right?
    Dr. Tracy. Yes, ma'am, I agree completely.
    Ms. Edwards. And then I just want to ask Dr. Shin about the 
hypersonic research program because there has been an 
indication that perhaps the Department of Defense would then 
assume some of that or all of that research agenda. Can you 
tell me whether you really believe that that is appropriate and 
perhaps, Ms. Blakey as well, if you could indicate whether 
there have been some issues or challenges with fully marrying a 
DOD agenda with what needs to take place in the civilian 
sector.
    Dr. Shin. Yes, Congresswoman. I think the first point I 
would like to convey to you is our relationship with DOD in 
hypersonic area has been very prosperous in the past couple 
decades, to say the least. So with the priority exercise that 
we have gone through with the NASA budget in proposing 
reduction in hypersonic doesn't mean that we didn't know each 
other and didn't work together and all of a sudden something 
will fall off the cliff.
    So I will propose one good example which was U.S. Air Force 
program called X-51, and that was built upon the technological 
accomplishments that NASA made through X-43 program. I am sorry 
to throw all these numbers. But X-43 for the first time in 
history demonstrated that we can fly supersonic and self-
ignited combustion could happen in a hypersonic regime. So 
someone mentioned to me, an expert in the hypersonic area 
mentioned to me, that igniting the combustor in this hypersonic 
speed would be like trying to light a candle in the hurricane. 
I think that is a very good analogy.
    So we flew 10 seconds in hypersonic, self-ignited mode. 
U.S. Air Force built upon that technology, and now X-51 flew 
minutes and especially on not hydrogen fuel but carbon fuel, 
hydrogen fuel that is a conventional fuel, and be able to build 
upon the technology.
    So to getting to your question, we have been in good 
collaboration with DOD for years, so with this reduction on the 
NASA part, certainly the partnership needs to be elevated into 
higher level, more like reliance level. But we have been 
discussing--I personally am engaged in several discussions with 
officials in DOD and Air Force, and we are doing our best not 
to damage the collaboration, certainly with DOD and for the 
competency for the country.
    Ms. Edwards. Thank you, Mr. Chairman.
    Ms. Blakey. One thought to add to that from the vantage 
point of looking at the situation of DOD very closely as we do 
every day, the Budget Control Act has taken $487 billion out of 
the DOD budget. The upcoming prospect of sequestration is 
another half-trillion. We know that the operational aspects of 
DOD's budget will continue to require to be funded and that 
therefore means that it is the investment accounts, the R&D, 
which is where those cuts will take place. I believe, as Dr. 
Shin outlined, that there is the best intent in the world to 
try to keep so much going that supports it. But in the reality 
of the world that we are facing in terms of DOD's own budget, 
it is an extremely bleak picture. So I think we should bear 
that in mind.
    And things such as you are highlighting, the R&D tax 
credit, that could make a real difference. The United States 
has dropped to 16th in the world in terms of the way we support 
private-sector R&D. So looking outside the federal budget but 
trying to be supportive, I would urge this Committee to keep 
that in mind.
    Chairman Palazzo. Go ahead, Doctor.
    Dr. Harris. Mr. Chairman, may I speak to Congresswoman 
Edwards' concern regarding DOD's support for hypersonics? First 
of all, of all the flight regimes, it is hypersonics that 
requires, that cannot make advances without flight research. 
There is no way you can advance hypersonics with ground testing 
facilities or computations, simulations alone. Flight test is 
absolutely critical.
    In terms of the budget or the responsibility being shifted 
entirely to DOD, I would recommend that that is not a capital 
idea, that NASA needs to maintain a capability in hypersonics. 
Why? It is such a critical field that once you leave it, the 
cost to rebuild it is enormous and it costs money as well as 
time. I firmly believe NASA should maintain a presence in 
hypersonics.
    Chairman Palazzo. I now recognize Mr. Clarke from Michigan.
    Mr. Clarke. Thank you, Mr. Chair. I appreciate it. Just a 
general question to any panel member. It is regarding 
opportunities that you see in NASA's aeronautics research that 
could be easily commercialized, any low-hanging fruit that can 
help us create jobs in the near future.
    Dr. Harris. May I take that one? Sir, the committee that 
reviewed NASA's flight research capabilities identified an area 
of great opportunity, mainly the development of a supersonic 
business jet. The requirement in terms of flight research is to 
demonstrate a reduction in the impact of the sonic boom. We 
feel that the Nation, industry and NASA has progressed to a 
point where we are able to do that in a reasonable length of 
time. That would generate an opportunity to build business 
jets, a new industry, one that would lead to high-skilled, 
high-wage jobs that would have a tremendous impact on our 
economy, and I would say would offer opportunities to sell such 
airplanes worldwide.
    Mr. Clarke. Dr. Harris, is there anything that needs to be 
done to help advance this commercialization?
    Dr. Harris. Well, yes. I think we have to demonstrate 
through flight tests that we can fly supersonic biz jets over 
land without being a nuisance in terms of the sonic boom 
produced. And that is a flight test requirement that it has to 
be demonstrated in flight, and I think NASA should have the 
opportunity to demonstrate that.
    Mr. Clarke. Thank you. Anyone else have any suggestions?
    Ms. Blakey. There is tremendous potential in the unmanned 
aerial systems in domestic use of air space, cargo, all sorts 
of security, homeland security monitoring. This is an area that 
we will see a proliferation of vehicles if we could just get 
over a few problems that we are trying to solve right now. So 
that would be one.
    And I would also say alternative jet fuels that NASA is 
working on. There is a huge market there because we are going 
to be moving to that, and we would like to see that those 
companies in distribution come out of the United States.
    Mr. Clarke. What are the difficulties you think we need to 
overcome right now to best commercialize that research?
    Dr. Shin. I think as Dr. Harris and Ms. Blakey mentioned, 
NASA aeronautics has been really diligently working with 
industry to make sure that technologies are transferred 
effectively and timely. During my oral testimony, we showed 
many of the NASA technologies that have been transferred to 
industry and turned into commercial products for the past 
several decades. We are continuing that role, and Ms. Blakey 
mentioned about UAS. We have a project, started last year, 
trying to make the UAS access to national air space, civil UAS. 
That is what I am talking about, not military UAS, and so many 
of the NASA capabilities and concepts and tools will be able to 
work with FAA to help speeding the access of UAS into NASA. And 
now the opportunities are just really limitless there, as Ms. 
Blakey just alluded, that from high altitude, long endurance, 
observation to--some people even conceive even a pizza 
delivery, but I think that is a little too far-fetched.
    But the opportunities are just boundless. So I think that 
is what we would like to do. We push the boundary and develop 
new capabilities to open up the market so our country stays 
ahead of all this aviation sector, not just dwelling in what we 
do best right now, but keep on investing in the future, as 
Congresswoman Edwards so accurately pointed out, pushing the 
boundary and putting it out there in the future so industry can 
stay and remain in the leadership position for decades to come.
    Mr. Clarke. When it comes to the development of these 
unmanned surveillance vehicles, what is the timeframe that you 
think we--how long would it take before this could be 
commercialized?
    Dr. Shin. Yes. So our project has a plan to make impact 
from 2015 to next 10 years. So that is our target, and we do 
need to remember that DOD has an enormous amount of experience 
operating UAS. So we got to build upon that experience and 
knowledge to transition to a civil UAS, and I think working 
with FAA, DOD, and also Homeland Security, we are up to the 
task, and we certainly will do our best to make that impact 
from 2015 and out.
    Mr. Clarke. Thank you, Mr. Chair. Thank you.
    Chairman Palazzo. Thank you, Mr. Clarke. At this time we 
are going to go into a second round of questions, and I now 
recognize myself for one question.
    There is a lot of discussion this week on certain cyber 
security bills. When you talk to a lot of our military leaders, 
they say the things that keep them up at night is a short list, 
and cyber security and cyber warfare is one of those.
    So Dr. Tracy, some of your comments about the future system 
architecture designs in your testimony was noteworthy. You go 
on to say current and future generation aircraft, their flight 
management systems and ATM systems, are highly dependent upon 
highly complex software and hardware, digital system to 
operate. What is being done today to protect current 
generations of automation systems, and how severe a threat is 
cyber security? And where does our Nation's expertise reside 
for this type of research?
    Dr. Tracy. Chairman Palazzo, thank you for the opportunity 
to talk about cyber security. We and all of the industry take 
the threat as very serious. We invest significant resources in 
understanding what the threats are, where they are coming, and 
we work very hard to mitigate them. The threats could be toward 
our infrastructure, which is used to run the company or any 
other company, and then also you have to always be on the alert 
that people aren't trying to attack systems that you might have 
on the airplane.
    We go to a great extent to verify that the network 
architecture on all our platforms is secure and that software 
can't be injected into those systems through some unapproved 
path.
    We work jointly with the Department of Defense and other 
government agencies to both understand the threat and come up 
with mitigation plans for taking care of those threats in both 
our infrastructure and in our platforms.
    Chairman Palazzo. Thank you. I now recognize Mr. Costello 
for a question.
    Mr. Costello. Mr. Chairman, thank you. Dr. Shin, you and 
Ms. Blakey touched on the unmanned aircraft system, the UAS. 
They are playing more of a role every day in public missions 
with border patrol, military training, weather monitoring, and 
we are seeing companies that are being created and jobs being 
created today and for the future for our unmanned aircraft. As 
you know, after 23 extensions, we finally have an FAA 
reauthorization bill that was passed by the Congress and signed 
into law by the President, and it requires the FAA, by the 
middle of next month, to determine how to expedite the 
licensing process of certain government unmanned aircraft. But 
it also requires the FAA to develop a plan later this year, a 
comprehensive plan, for the integration of private, unmanned 
aircraft systems into the U.S. airspace system by 2015.
    So my question, Dr. Shin, is NASA currently working with 
the FAA in order for them to implement what is required under 
the FAA reauthorization bill, and is there anything that you 
are doing now or can be doing in the future to meet these 
timelines?
    Dr. Shin. Yes, sir. A NASA project is working on separation 
assurance, piggybacking and collaborating with--the DOD has 
been working very hard, and also communication. We talked about 
cyber security a little bit, and I think UAS has a big 
importance when keeping that communication line secure and safe 
and also the certification end of it that we are working with 
FAA to support that. And then also human factors, man and 
machine interaction in those areas.
    So these are all very critically important areas, research 
areas, that NASA is working to provide support to the community 
and in particular FAA. But I am also a member to UAS executive 
committee as you are well aware of. The DOD, FAA, Homeland 
Security and NASA, the founding members, and I think we have 
made a lot of progress, the special permit process between DOD 
and FAA, and also NASA has been working with FAA, UAS office 
and the safety office there to make sure that we are connected 
in identifying the critical issues that FAA has been working 
on.
    So as an example, last year on the JPDO's oversight, 
Department of Defense, NASA and FAA and a couple other agencies 
also participated. But three agencies were the main workhorses 
to generate this interagency, national UAS research, 
technology, and demonstration roadmap. So that is a very 
important piece of work that will guide all these participating 
members in the Federal Government. But we have to build upon 
that. That shouldn't be the end of our interagency efforts.
    So through X-COM, through JPDO, I think there are 
structures in place for our government agencies to work 
together.
    Chairman Palazzo. I now recognize Mr. Rohrabacher for a 
question.
    Mr. Rohrabacher. Thank you very much. First of all, Ms. 
Blakey, what is the depreciation schedule for your industry in 
terms of purchasing new equipment, new machines?
    Ms. Blakey. I will have to get back with you for that. I 
don't have it.
    Mr. Rohrabacher. Maybe our gentlemen?
    Dr. Tracy. Same answer. I will have to get that.
    Mr. Rohrabacher. Let me just note, depreciation schedules 
are really important for innovation, and perhaps even more 
important than a direct subsidy to a specific company for a 
specific research job. It is an enabler, and I understand that 
the Japanese have a depreciation schedule that permits them to 
write off the cost of new equipment and machines immediately 
and that our companies are faced with a much greater burden. 
But I certainly would like to know the statistics on that. 
There is some reform that we could do that would have some 
dramatic impact and not have a major impact on the budget.
    Let me suggest this, Mr. Chairman. We are sort of taking a 
microscope and looking at the impact of trying to balance the 
budget. Well, maybe we don't need a microscope. Maybe we just 
sort of step back and take a look at the picture here, and I 
don't think that we would have any trouble financing any of 
these research projects and keeping all of this equipment that 
we need to help our private sector verify the technological 
things, that they are research projects. They are the wind 
tunnels and the various electronics that provide basic research 
verification, et cetera. I don't think we would have a lack of 
money if we perhaps weren't spending $3 billion a year on a 
huge, huge rocket that may never go into service. $3 billion. 
The SLS Orion project which will take an incredible amount of 
time, and if you look at other NASA projects of this scope, we 
will probably be way over budget. Anyway, just take a step back 
because we have this mammoth program staring us right in the 
face, and that is what is draining the money here. It is not 
even a balanced budget. It is having grandiose plans when we 
can't take care of fundamentals.
    We also have a telescope project now that is almost $700 
million a year. That is over $3.5 billion being extracted out 
of the NASA budget. These are huge expenditures, and while I 
certainly support the telescope and we have seen these 
incredible expansions of the actual cost that we were promised 
on these things.
    Anyway, I would hope that we are a little bit more cautious 
when we get ourselves involved in mega-projects because they 
will impact on micro-projects like this.
    One last thought on drones. Drones are going to really--you 
got the radical left in this country who decided that having a 
drone in the air is more of a threat to their privacy than to 
having a helicopter pilot in the air in a helicopter. This type 
of irrationality is up to us to combat, and that doesn't cost a 
penny. Thank you very much, Mr. Chairman.
    Chairman Palazzo. Thank you. I thank the witnesses for 
their valuable testimony and the Members for their questions. 
The Members of the Subcommittee may have additional questions 
for the witnesses, and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments and statements from Members. The witnesses 
are excused, and this hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
[GRAPHIC] [TIFF OMITTED] 74060.045

[GRAPHIC] [TIFF OMITTED] 74060.046

[GRAPHIC] [TIFF OMITTED] 74060.047

[GRAPHIC] [TIFF OMITTED] 74060.048

[GRAPHIC] [TIFF OMITTED] 74060.049

[GRAPHIC] [TIFF OMITTED] 74060.050

[GRAPHIC] [TIFF OMITTED] 74060.051

[GRAPHIC] [TIFF OMITTED] 74060.052

[GRAPHIC] [TIFF OMITTED] 74060.053

[GRAPHIC] [TIFF OMITTED] 74060.056

[GRAPHIC] [TIFF OMITTED] 74060.057

[GRAPHIC] [TIFF OMITTED] 74060.058

[GRAPHIC] [TIFF OMITTED] 74060.059

[GRAPHIC] [TIFF OMITTED] 74060.060

[GRAPHIC] [TIFF OMITTED] 74060.061

Responses by Dr. Wesley Harris
[GRAPHIC] [TIFF OMITTED] 74060.062

[GRAPHIC] [TIFF OMITTED] 74060.063

[GRAPHIC] [TIFF OMITTED] 74060.064

[GRAPHIC] [TIFF OMITTED] 74060.065

[GRAPHIC] [TIFF OMITTED] 74060.066

[GRAPHIC] [TIFF OMITTED] 74060.067

[GRAPHIC] [TIFF OMITTED] 74060.068

[GRAPHIC] [TIFF OMITTED] 74060.069

[GRAPHIC] [TIFF OMITTED] 74060.070

[GRAPHIC] [TIFF OMITTED] 74060.071


                                   

</pre></body></html>
